                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

 Case Number: 113110059                                                                  Page 1 of 1



         This case was opened when a member 1 of an NSF advisory panee who cooperated with an OIG
         audit3 advised OIG that he had been removed from the panel shortly after the NSF Office4 being
         audited learned ofhis cooperation.

         Our investigation determined that the cause of the member's removal and the decision to remove
         him from the panel predated his cooperation with OIG.

         This case is closed with no further action taken.




NSF OIG Form 2 (11/02)
